No.

'(t/jr-G'ntc

PROOF OF SERVICE
I, Samantha Rajapakse, do swear or declare that on this date, 22nd of
June, 2021 as required by Supreme Court Rule 29, I have served the enclosed
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION
FOR A WRIT OF CERTIORARI on each party to the above proceedings or that
party Counsel, and on every other person require to be served, by depositing an
envelope containing the above documents in the U.S. mail properly addressed to each
of them and with FIRST-CLASS postage prepaid or by delivery to a Third-party
commercial carrier within 3 calendar days.

The name and address of those served as follows:
Counsel on the record of the courts for all parties of Credit Acceptance except Former
Defendant Robert Williams, Managing Member of One Stop Auto Sales
Counsel Stephen W. King
King and Murray LLP
355 S. Old Woodward Ave.
Birmingham, MI 48009
248-792-2396

----- ^

Samantha Rajapakse
Petitioner/ Pro Se
31

